       Audits,                                                                                      OFFICE of
                                                                                                    INSPECTOR GENERAL
   Inspections, and                                                                                 U.S. Department of the Interior

     Evaluations
The Office of Inspector General’s
                                                                                                              Fiscal Year
mission is to promote excellence,        Report Fraud, Waste, and Mismanagement
integrity, and accountability in the
                                                                                                                   2012
programs, operations, and
                                               Fraud, waste, and mismanagement in
management of the U.S. Department of             Government concerns everyone:
the Interior.                                    Office of Inspector General Staff,
                                         Departmental employees, and the general public.
The Office of Audits, Inspections, and    We actively solicit allegations of any inefficient
Evaluations focuses on targeting our               and wasteful practices, fraud,
                                         and mismanagement related to Departmental or
resources toward developing solutions     Insular Area programs and operations. You can
for the Department’s most serious             report allegations to us in several ways.
management and program challenges           ______________________________
and toward high-risk areas vulnerable
to fraud, waste, abuse, and                                  www.doioig.gov
mismanagement.

When our work results in                       24-Hour Toll Free: 800-424-5081
corresponding reforms implemented            Washington Metro Area: 202-208-5300
by DOI, our mission to promote                        Fax: 703-487-5402
excellence, integrity, and
accountability in the programs,                   U.S. Department of the Interior
operations, and management of DOI is                Office of Inspector General
                                                       Mail Stop 4428 MIB
furthered, and we look forward to new
                                                        1849 C Street, NW.                               Annual Work Plan
opportunities to accomplish the same.                 Washington, DC 20240



                                                Cover Photo by Tammy Blue, DOI/OIG-Central Region
  Framework                                   Mandatory and
                                               Requested
                                                                         Target Categories for
                                                                            Discretionary
   for Fiscal                                   Activities                    Activities

   Year 2012                               • Oversight of Chief          • DOI Business Processes
                                             Financial Officers Act        and Operations
                                             Audits
The Office of Inspector General’s
annual work plan is prepared to                                          • Climate Change
provide a framework for the focus of
audit, inspection, and evaluation
resources for the coming fiscal year.      • Oversight of the            • Indian and Insular
The plan includes mandatory,
requested, and discretionary audits;         Contracted Audit of           Areas
inspections; evaluations; and follow-up
reviews that address DOI’s top
                                             Selected Trust Activities
management challenges, emerging
issues, and key mission areas identified
                                                                         • Health, Safety,
in DOI’s strategic plan. The plan is                                       Security, and
designed to be flexible. It may be
modified during the year to                • Audits of Grants for          Maintenance
accommodate higher priority audits or
other services determined by OIG or
                                             Federal Aid in Fish and
requested by DOI, the Congress, or           Wildlife to States and      • Water
other OIG clients.
                                             Insular Areas
                                                                         • Asset Protection and
                                                                           Preservation
